                            SENSITIVE BUT UNCLASSIFIED 


                                                          United States Department of State
                                                          and the Broadcasting Board of Governors

                                                          Office   0/ Inspector General


MEMORANDUM

TO: 	          BBG Executi ve Director - JeffTey Trimble

FROM: 	        OIG - Harold W. Geisel, Deputy Inspector      Gencr/lJ'h~
SUBJECT: 	 Memorandum Report, Broadcasting Board of Govemors Operations in Seoul,
           South Korea

       The Office of Inspector General (OIG) conducted a limited review of Voice of Ameri ca
(VOA) and Rad io Free Asia (RFA) operations in Seoul, South Ko rea, and visited the news
bureaus in Seoul in May 20 11 . The inspection tcam al so conducted interviews with VOA and
RF A Washington staff members prior to departure and reviewed material s these offices
submitted to OIG.

      The Broadcasting Board of Governors (BBG) operates three news bureaus in Seoul: a
VOA news bureau, a VOA Korean Service new s bureau, and an RF A bureau.

Vo icc of America News Bu reau

         The VOA news bureau produces news items on Korea and Japan fo r the worl dwide VOA
service in Engli sh. The office is colocated wi th the VOA Korean Service in a media complex in
downtown Seou l. The office is staffed by an American bureau chief and three part- time
ass istants. VOA news ed itors in Washington lO ld the inspection team that they were very pl eased
with the bureau 's work .

        The bureau chief expressed satisfactio n with Washington support but noted that he
operated without petty cash. At the time of the inspection, he was forced to use hi s own fund s to
pay routine expenses and then wai t for reimburse ment. He told the inspection team that
reimbursement typicall y took I month, so that at any given time he was out of pocket
approx imately $1.000. While this si tuation is far fTom ideal , he said that he expected to receive a
purchase card that would greatl y reduce the need for him to advance personal fund s for VOA
needs.

      When asked about the VOA News We b site, the bureau chief suggested that some
improvements cou ld be made, especially in the timing of updates. Broadcastin g Board of
Governors' Office of New Med ia is workin g w ith all of VOA to address similar problems.




                            SENSITIVE BUT UNCLASSIFIED 

                            SENSITIVE BUT UNCLASSIFIED 





       The inspection team notes that the bureau ch ief maintains a Twitter account and has
almost 18,000 followers .

Voice of Amcricn Korean News Bureau

        The VOA Korean Service began broadcasti ng in 1942, and the current news bureau in
Seoul opened in 2007. The bureau is managed by a Foreign Service national and has four
stringers or correspondents, an office manager, and an intern. VOA Korean Service broadcasts 5
hours per day.

        North Koreans are the target audience for VOA Korean Service, and North Korea
attempts to jam the broadcasts. There is, however, substantial evidence that North Koreans
receive the signal and listen to the service regularly . For example, a Western aid worker who had
lived in North Korea wrote to the VOA Korea Servi ce about its importance:

       Now more than ever, the North Korean people desperately need VOA 's help and
       encouragement. According to my frie nd who is still based in Pyongyang, you are not only
       the Voice of America but also the voice of the victims of the North Korean dictatorship.
       Every morning when I was in Pyongyang I listened to VOA news - and my North
       Korean counterparts were sitting beside me. You were their main source of information
       about the outside world!

       The inspection team found no issues between VOA Korean Service staff in Washington
and VOA Korean Service staff in Seoul: Washington is pleased with the bureau's work , and the
bureau chief said Washington was "very supportive." The bureau chief has received her purchase
card and is able to use it regularly. (She still has to pay one bill with cash, but that is an out-of-
pocket expense of less than $100 per month .)

Radio Free Asia Seou l Bureau

       Whi le VOA Korean Service provides news about the United States and the world to
North Koreans, R1~A Korea provides news about NOJ1h Korea to North Koreans. The bureau 's
mission is sensitive and difficult; double-sourcing a story from North Korea presents challenges
unknown to reporters with easy, safe access to sources. RFA Korean broadcasts 5 hours per day.
Thirty minutes per day are dedicated to news; the rest consists of feature stories relevant to life in
North Korea.

        The bureau has a bureau chief and three full-time reporters (all Foreign Service
nationals), three co ntractors, and len stringers with strong ties to North Korea. One of the part-
time employees is able to update the RFA Web site when major stories break, and she docs so
two or three times per week.

        North Korea jams RF A frequencies, but there is evidence that RF A is listened to
regularly by a significant portion oflhe North Korean population.




                            SENSITIVE BUT UNCLASSIFIED 

                          SENSITIVE BUT UNCLASSIFIED



      The bureau chief and the staff members expressed complete sati sfaction with support
from Washington.

       In sum, the inspection team found three well-managed news bureaus in Seou l, produci ng
materials that are hi ghly valued by both news editors in Washington and target audiences in the
Korean peninsula.

                                                         matter further, or your staff may
          (b) (6)                                                    by ema il at
(b) (6)                                (b) (6)




                           SENSITIVE BUT UNCLASSIFIED
